               Financial Audit of
            Dallas Inter-Tribal Center
Title IV-A Indian and Native American Program
          Grant No. B-5303-5-00-81-55
   Audit Period: July 1, 1997, to June 30, 2000




                                 U.S. Department of Labor
                                 Office of Inspector General
                                 Office of Audit
                                 Report Number: 06-02-001-03-355
                                 Date Issued: February 13, 2002
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                                TABLE OF CONTENTS


                                                                                                                             Page

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS:

          The Center’s Cost Allocation System was Inadequate to Properly Account
          for and Report Program Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          The Center’s Accounting Procedures, Internal Controls, and System in Effect
          During the Audit Period Were Inadequate to Control Federal Funds. . . . . . . . . . . . . . . 9

          The JTPA Program was Charged Rent for a Building the Center Owns. . . . . . . . . . . . 11

Schedule 1: Expenditures Reported in the Annual Status Reports,
             July 1, 1997, through June 30, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Schedule 2: Indirect Administrative Salaries Charged Without Justification . . . . . . . . . . . . . . . 14




Office of Inspector General

                                                                 i
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                          ABBREVIATIONS



CFO                       Chief Financial Officer

DAIC                      Dallas American Indian Council

DINAP                     Division of Indian and Native American Programs

DOL                       U.S. Department of Labor

ETA                       Employment and Training Administration

JTPA                      Job Training Partnership Act

OCD                       Office of Cost Determination

PY                        Program Year

UICT                      Urban Inter-Tribal Center of Texas

WIA                       Workforce Investment Act




Office of Inspector General

                                                    ii
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                      EXECUTIVE SUMMARY


We conducted a financial audit of the Dallas Inter-Tribal Center’s (the Center) Job Training
Partnership Act (JTPA), Title IV-A Indian and Native American Program grant
No. B-5303-5-00-81-55 for the period July 1, 1997, through June 30, 2000. This grant was
awarded to the Center by the U. S. Department of Labor (DOL), Employment and Training
Administration (ETA). The Center’s reported expenditures were $964,626 for the 3-year audit
period.

The audit objective was to determine if the Center’s accounting system properly classified,
allocated, and reported allowable costs to the Center’s JTPA program.

The Center charged $13,064 of indirect costs to its JTPA grant without an approved indirect cost
rate and allocated costs among programs and between JTPA’s cost categories in an arbitrary and
inconsistent manner. The Center’s cost allocation methodologies resulted in $123,596 of indirect
administrative costs being directly allocated to the JTPA program and some administration costs
being reported as program costs.

In addition to inadequate allocation methodologies, the Center’s accounting system did not:

        !        Control costs by budget line item.
        !        Post transactions to the general ledger in a timely manner.
        !        Charge costs to the proper period.
        !        Have a review process to catch and prevent posting errors.

Finally, the Center charged unsubstantiated rental costs of $2,994 to the JTPA program for space
in a donated building the Center owns.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

        !        Require the Center to establish an adequate joint cost allocation system and charge
                 indirect costs based on an approved indirect cost plan. The joint cost allocation
                 plan should accurately measure the benefits provided to each program and
                 Workforce Investment Act1 cost categories and be supported by current data.


        1
         Current Center programs are now funded by the Workforce Investment Act which replaced JTPA.

Office of Inspector General
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


        !        Disallow the $13,064 of indirect costs charged to the JTPA grant without an
                 approved indirect cost rate and which were not documented.

        !        Determine the allowability of the $123,596 of indirect administrative costs which
                 were directly allocated to the JTPA program on a basis not related to the costs
                 being charged.

        !        Require the Center to establish an adequate accounting system in accordance with
                 29 CFR 95.21 to record, control, and report costs.

        !        Disallow $2,994 of unallowable rent charges. No further rent charges for the
                 Jefferson Boulevard building should be allowed.

Auditee’s Response to Draft Report and Auditor’s Conclusion

The Center did not respond to the draft audit report. Therefore, this report is issued in final
without a response.




Office of Inspector General

                                                    2
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                            BACKGROUND



The Dallas Inter-Tribal Center (Center) was incorporated in 1971 as a nonprofit Native American
corporation to provide healthcare and social services such as education and resource development
to Indian families residing in the Dallas/Fort Worth, Texas, area.

The Center’s board members incorporated the Dallas American Indian Council (DAIC) in
November 1992, as a Texas nonprofit corporation organized for the sole purpose of holding title
to property, collecting income, and turning over all net income to the Center. DAIC’s sole asset
is the donated land and building on Jefferson Boulevard in Dallas where the Center operates.

In 1998, the Center changed its name and started doing business as the Urban Inter-Tribal Center
of Texas (UICT). The Center currently operates two satellite offices in Fort Worth, Texas.

During our audit period, the DOL funded the Center’s employment and training programs
through Job Training Partnership Act (JTPA) grants under which the Center provided the
following services:

        !        Classroom, on-the-job, and general equivalent diploma (GED) training for
                 qualified Native Americans.

        !        Career counseling and guidance.

        !        Job placement assistance.

The Center also administered other programs such as Community/Health Services programs
funded by the Indian Health Service and the Women, Infants, and Children Program funded by the
U.S. Department of Agriculture.




Office of Inspector General

                                                    3
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                              OBJECTIVES, SCOPE AND METHODOLOGY



Objective

The audit objective was to determine if the Center’s accounting system properly classified,
allocated, and reported allowable costs to the Center’s JTPA program.

Scope

Our review of internal controls was limited to the Center’s internal controls related to the financial
reporting requirements, cost allocation methodology, and the cost classification system for the
period July 1, 1997, through June 30, 2000. We did not perform this audit to express an opinion
on the Center’s financial reports taken as a whole and no such opinion is given.

Methodology

We performed the following audit procedures to accomplish our objectives:

        !        Reviewed payroll records including the time and attendance system.

        !        Reviewed a random sample of travel vouchers directly charged to the JTPA grant.

        !        Reviewed the allocation of the Center’s joint costs that benefited more than one
                 program to determine the appropriateness of JTPA’s share of the costs.

        !        Reviewed the allocation of JTPA’s costs between the program and administration
                 costs categories.

We performed the audit in accordance with generally accepted auditing standards and government
auditing standards promulgated by the Comptroller General.

This report is intended solely for the information and use of the Dallas Inter-Tribal Center and
ETA, and is not intended to be and should not be used by anyone other than these specified
parties.




Office of Inspector General

                                                    4
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                              FINDINGS AND RECOMMENDATIONS


The Center did not respond to the draft report issued to them on October 25, 2001. Therefore,
this report is issued in final without auditee comments.

                                                    The Center charged $13,064 of indirect costs
 The Center’s Cost Allocation System was            to its JTPA grant without an approved
 Inadequate to Properly Account for and             indirect cost rate and allocated costs among
 Report Program Costs.                              its programs and between JTPA’s program
                                                    and administration cost categories in an
                                                    arbitrary and inconsistent manner. The
Center’s cost allocation methodologies resulted in $123,596 of indirect administration costs being
directly allocated to the JTPA program and JTPA administration costs being reported as program
costs to avoid exceeding JTPA’s 20 percent administration cost limit.

In PY 1997, the Center charged the JTPA program $13,064 for indirect costs without
documenting the costs and without an approved indirect cost rate. Consequently, we were unable
to determine if the indirect costs were allowable or if the cost allocation method used was proper.

During PY 1997, the Department of Labor’s Office of Cost Determinations informed the Center
that it would no longer be allowed to charge indirect costs. The letter stated:

        It is necessary at this time to notify all awarding agencies of the Department of
        Labor and other Federal Departments that future awards are to be made without
        provisions for indirect costs, and that all indirect costs claimed against awards
        already made are subject to disallowance and recovery by the awarding agency.

Consequently, the Center stopped charging indirect costs and began allocating all costs directly to
the JTPA and other programs. However, the Center did not establish a methodology for
allocating the costs in a consistent, fair, and reasonable manner among programs or between
JTPA program and administration cost categories.

Office of Management and Budget (OMB) Circular No. A-122, Cost Principles for Nonprofit
Organizations, Attachment A, paragraph C, provides:

        1. Indirect costs are those that have been incurred for common or joint objectives
        and cannot be readily identified with a particular final cost objective. . . .



Office of Inspector General

                                                    5
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

        2. . . . typical examples of indirect cost for many non-profit organizations may
        include . . . general administration and general expenses, such as the salaries and
        expenses of executive officers, personnel administration, and accounting.
        [Emphasis added.]

OMB A-122 Attachment A, paragraph D2a, provides:

        Where an organization's major functions benefit from its indirect costs to
        approximately the same degree, the allocation of indirect costs may be
        accomplished by (i) separating the organization's total costs for the base period
        as either direct or indirect, and (ii) dividing the total allowable indirect costs (net
        of applicable credits) by an equitable distribution base. The result of this process
        is an indirect cost rate which is used to distribute indirect costs to individual
        awards. The rate should be expressed as the percentage which the total amount of
        allowable indirect costs bears to the base selected. [Emphasis added.]

OMB Circular No. A-122, Attachment A, paragraph D.4 “Direct Allocation Method,” provides:

        a. . . . Joint costs, such as depreciation, rental costs, operation and maintenance
        of facilities, telephone expenses, and the like are prorated individually as direct
        costs to each category and to each award or other activity using a base most
        appropriate to the particular cost being prorated.

        b. This method is acceptable, provided each joint cost is prorated using a base
        which accurately measures the benefits provided to each award or other activity.
        The bases must be established in accordance with reasonable criteria, and be
        supported by current data. . .

        c. Under this method, indirect costs consist exclusively of general administration
        and general expenses. [Emphasis added.]

The Center’s basis for allocating costs among programs and between JTPA program and
administration cost categories varied depending on the type of costs. Some allocation
methodologies appeared reasonable; yet, other methodologies used were inappropriate for the
type of costs being allocated.

For example, general administrative costs that would normally be charged through an approved
indirect cost rate -- Center director’s and general support staff’s salaries, fringe benefits, and
other related administrative costs (space, utilities, etc.) -- were allocated to JTPA based on
predetermined rates for which the Center provided no documentation to support the allocations.

Office of Inspector General

                                                    6
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

The Center directly allocated the following indirect costs of $123,596 to the JTPA program for
PYs 1997, 1998, and 1999. (See Schedule 2 for PY details.)

                                      Indirect Costs That Were Allocated
                                            to JTPA as Direct Costs
                                Position Title         Percent    Amount Charged
                        Executive Director                25.0%             $45,900
                        Administrative Assistant          25.0%              25,472
                        Chief Financial Officer           20.0%              30,412
                        Accounting Clerk                  20.0%               9,405
                        Secretary                         25.0%              12,407
                              Total                                        $123,596

While we do not contest that some costs for these individuals are allowable JTPA costs, the
allowable amount is unknown because the allocation plans are unsubstantiated. These costs are
indirect costs and should have been allocated based on an approved indirect cost rate.

In addition to indirect costs being improperly allocated to JTPA, once joint costs were allocated
to the JTPA program, we could not determine how the Center allocated costs between the
administration and program cost categories for financial reporting purposes. For each payment
posted to the general ledger, JTPA’s direct costs and allocated share of joint costs were allocated
on the general ledger between the program and administration cost categories. For the most part,
those cost allocations appeared reasonable. Therefore, for reporting JTPA costs, the Center
should have totaled the program/administration cost category allocations from the general ledger,
but did not. The Center reclassified the total posted costs between the administration and
program cost categories to significantly reduce the amount of administration costs reported.

The following are examples of the Center’s inconsistent, unacceptable, and undocumented cost
allocation methodologies:

        !        Retirement costs of $3,828 were classified and reported in the program (training
                 assistance) cost category; yet, the account included retirement benefits for both
                 administrative and program employees.



Office of Inspector General

                                                      7
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

        !       Payroll services costs were allocated among programs (JTPA, Indian Health
                Service, etc.) based on the actual number of payroll checks processed each pay
                period. However, since the number of checks processed was not updated
                regularly, the wrong percentages were used at various times. Nevertheless, payroll
                services costs are administration costs; yet, the Center allocated the majority of
                JTPA’s share of these costs to the program cost category.

        !       Office supplies’ costs were allocated based on the programs’ funding levels.
                Allocation based on budget is not an acceptable basis for allocating costs.

        !       The JTPA program director allocates 50 percent of his salary and fringe benefits
                costs to the program cost category. He allocates the other 50 percent to the
                administration cost category. We are unaware of any program related functions he
                performs, especially at the 50 percent level.

In our opinion, the examples discussed above and the Center’s reclassifying JTPA costs between
the program and administration cost categories from the general ledger to the reports was to
avoid reporting administration costs in excess of the JTPA Title IV-A, 20 percent administration
cost limit. Our opinion is based on the fact that even after manipulating administration costs
down by the inadequate accounting methods, the Center’s reported JTPA administration costs
averaged 21.7 percent for our 3-year audit period. Had costs been properly reported,
administration costs would have been significantly over the 20 percent limit.

OMB Circular A-122 is clear regarding the requirements for indirect costs and cost allocation
plans. Costs are to be allocated to benefited activities on a reasonable and consistent basis. The
lack of an approved indirect cost plan and inconsistent, inappropriate direct allocation methods
bring into question the accuracy of costs charged to the Center’s programs.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

        !       Require the Center to establish an adequate joint cost allocation system and charge
                indirect costs based on an approved indirect cost plan. The joint cost allocation
                plan should accurately measure the benefits provided to each program and
                Workforce Investment Act cost categories and be supported by current data.

        !       Disallow the $13,064 of indirect costs which were charged to the JTPA grant
                without an approved indirect cost rate and which were not documented.


Office of Inspector General

                                                    8
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

        !        Determine the allowability of the $123,596 of indirect administrative salary costs
                 which were directly allocated to the JTPA program without justification.


 The Center’s Accounting Procedures, Internal
 Controls, and System in Effect During the
 Audit Period Were Inadequate to Control
 Federal Funds.


The Center did not:

        !        Have an adequate cost allocation system to allocate some costs among programs
                 and allocate JTPA costs between cost categories. (See prior finding.)

        !        Use a budgetary accounting system to control costs, including administrative cost
                 limitations.

        !        Post transactions to the general ledger in a timely manner.

        !        Use a cut-off date for end-of-period posting.

        !        Have a review process to catch and prevent posting errors.

Furthermore, the Center simultaneously maintained two general ledgers in PY 1999. One general
ledger was for the Dallas Inter-Tribal Center and the other general ledger was for the Urban Inter-
Tribal Center of Texas. Costs charged to JTPA were split between the two general ledgers
simply because of a name change of the organization.

All of these factors contributed to the Center’s underreporting PY 1997 program costs by
$54,219 and PY1998 costs by $41,847. Because underreported costs for each year were
recovered in the subsequent program years, the Center was reimbursed for all costs.

The Center’s employment and training department prepared the annual financial reports from its
records instead of the official accounting department’s records. In addition to maintaining two
accounting systems, the two systems were not reconciled to ensure the accuracy of the reported
numbers. Neither the accounting department nor the chief financial officer received copies of the
annual financial reports. Consequently, various year-end accruals and adjustments made to the
accounting records were not taken into account when preparing the financial reports resulting in
the underreporting of expenditures. The annual financial reports should be based on official

Office of Inspector General

                                                    9
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

accounting records maintained by the Center. It should not be necessary for the program office to
track costs in a separate system.

OMB Circular A-110 establishes uniform administrative requirements for Federal grants to
nonprofit organizations. These requirements are codified at Title 29, Code of Federal Regulations
(CFR). 29 CFR Section 95.21, “Standards for financial management systems,” provides:

        (b) Recipients' financial management systems shall provide for the following:

                 (1) Accurate, current and complete disclosure of the financial
                 results of each federally-sponsored project or program in
                 accordance with the reporting requirements. . . .
                 (2) Records that identify adequately the source and application of
                 funds for federally-sponsored activities. . .
                 (3) Effective control over and accountability for all funds, property
                 and other assets. . .
                 (4) Comparison of outlays with budget amounts for each award. . .
                              .       .      .      .      .      .      .
                 (6) Written procedures for determining the reasonableness,
                 allocability and allowability of costs in accordance with the
                 provisions of the applicable Federal cost principles and the terms
                 and conditions of the award.
                 (7) Accounting records including cost accounting records that are
                 supported by source documentation.

Recommendation

We recommend the Assistant Secretary for Employment and Training require the Center to
establish an adequate accounting system in accordance with 29 CFR 95.21 to record, control, and
report costs.




Office of Inspector General

                                                    10
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

                                                             The Center sporadically charged the JTPA
 The JTPA Program was Charged Rent for a                     Program unsubstantiated rental costs of
 Building the Center Owns.                                   $2,994 for space in a donated building the
                                                             Center owns and in which the Center has no
                                                             cost basis.

The landlord/owner donated the property (land and building) at 209 East Jefferson, Dallas, Texas,
to the Center on October 6, 1992, for a nominal $10 payment. The Center conveyed title to the
property to its affiliate, the Dallas American Indian Council (DAIC) on December 8, 1992. DAIC
is composed of the same board members as the Center.

According to Center personnel, for 3 years after the property was donated, 1993 through 1996,
the Center charged its programs rent based on the rental rate the Center had paid when the
building was being rented from the previous owner. Yet, the Center had no rent costs during this
period. We have not questioned these 3 years of unallowable rent costs because they were
outside our audit period and we did not determine how much unallowable JTPA rent costs were
charged.

In PYs 1997 and 1998 (though November), the Center sporadically charged rent to the JTPA
program although the Center did not pay rent. JTPA’s share of these unallowable rent charges
was $2,994 as follows:

                                            JTPA
                 Month                      Share        Total Monthly Rent
                 July 1997                   $271        $3,3182
                 August 1997                  271        $3,318
                 September 1997               334        $3,318
                 May 1998                   1,059        $6,2503
                 November 1998              1,059        $6,250
                                           $2,994 Questioned Rent Charges

We are uncertain as to why the total monthly rent increased from $3,318 to $6,250 or was so
sporadically charged to the JTPA program. Nevertheless, while any rent charges are unallowable,
this sporadic process of charging unsubstantiated rent reflects on the inadequacy of the Center’s
accounting system and processes.


        2
         At this rental rate, the Center would recover the fair market value of the building in 5.65 years.
        3
         At this rental rate, the Center would recover the fair market value of the building in 3 years.

Office of Inspector General

                                                        11
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit

According to Center personnel, the building’s fair market value at time the landlord donated the
property was $225,060. The Center did not provide any documentation to substantiate this
valuation.

OMB Circular No. A-122, Attachment B, provides:

        11. Depreciation and Use Allowances.

        a. Compensation for the use of buildings, other capital improvements . . . may be
        made through use allowances or depreciation. However, except as provided in
        subparagraph f, a combination of the two methods may not be used in connection
        with a single class of fixed assets. . . .

        b. The computation of use allowances or depreciation shall be based on the
        acquisition cost of the assets involved. The acquisition cost of an asset donated
        to the organization by a third party shall be its fair market value at the time of
        the donation.

        c. The computation of use allowances or depreciation will exclude . . . the cost of
        land;

        d. . . the use allowance for buildings . . . will be computed at an annual rate not
        exceeding two percent of acquisition cost. . . [Emphasis added.]

The Center’s charging of rent to the JTPA program was not based on either a depreciation or use
allowance basis. Therefore, the $2,994 in rent charges are unallowable.

The Center’s chief financial officer stated that rent for the Jefferson Boulevard building is not
being charged to the current WIA program.

Recommendation

We recommend the Assistant Secretary for Employment and Training disallow the $2,994 of
unsupported rent charges. No further rent charges for the Jefferson Boulevard building should be
allowed.




Office of Inspector General

                                                    12
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                                                                                                      Schedule 1



                                             Expenditures Reported in the Annual Status Reports
                                                    July 1, 1997, through June 30, 2000
                              Category                      PY 1997              PY 1998       PY 1999       Totals
                 Classroom Training                          $64,607             $52,645        $54,232    $171,484
                 Training Assistance                         147,763             184,864        166,861     499,488
                 Work Experience                              38,530                   9,055      16,494     64,079
                 Community Service Employ.                      4,949                     0           0       4,949
                 All Supportive Service                         6,712                  3,607       4,564     14,883
                 Administration                               74,428               65,712         69,603    209,743
                 Reported Expenditures                     $336,989             $315,883       $311,754    $964,626
                 Expenditures in Gen. Ledger                 391,208             357,730        312,615
                 Underreported Expenditures                  $54,219             $41,847           $861




Office of Inspector General

                                                                        13
Dallas Inter-Tribal Center Title IV-A Indian and Native American Program Grant Audit


                                                                                                                            Schedule 2


                                              INDIRECT ADMINISTRATIVE SALARIES
                                            CHARGED TO JTPA WITHOUT JUSTIFICATION


  Administrative Title           Percentage              PY 1997                  PY 1998         PY 1999         TOTAL

Executive Director               25%                     $15,000                  $15,450         $15,450          45,900

Administrative Assistant         25%                       8,159                       8,400        8,913          25,472

Chief Financial Officer          20%                       9,306                       9,306       11,800          30,412

Accounting Clerk                 20%                       2,687                       2,937        3,781           9,405

Secretary                        25%                       3,359                       4,259        4,789          12,407

Totals                                                   $38,511                  $40,352         $44,733        $123,596


         Salary figures are based on projected annualized hourly and biweekly rates charged to JTPA. Fringe benefits are excluded.

         The same salary percentages for each administrative title were charged to JTPA for the 3 program years audited.



Office of Inspector General

                                                                        14
